                                                                         OFFICE OF THE
U.S. Department of Labor                                                 CHIEF FINANCIAL OFFICER

                           Office of Inspector General—Office of Audit




                                                                         MANAGEMENT ADVISORY COMMENTS IDENTIFIED
                                                                         IN THE ENGAGEMENT TO AUDIT THE
                                                                         CONSOLIDATED FINANCIAL STATEMENTS
                                                                         FOR THE YEAR ENDED SEPTEMBER 30, 2010


                                                                         This report was prepared by KPMG LLP, under contract to the U.S.
                                                                         Department of Labor, Office of Inspector General, and by acceptance, it
                                                                         becomes a report of the Office of Inspector General.



                                                                                                          ______________________________
                                                                                                               U.S. Department of Labor
                                                                                                         Assistant Inspector General for Audit




                                                                                                          Date Issued:          March 31, 2011
                                                                                                       Report Number:         22-11-006-13-001
                                                                                        Prepared by KPMG LLP
                                                    for the U.S. Department of Labor—Office of Inspector General


Table of Contents
                                                                                                                  Page
Executive Summary ...................................................................................................... 3

Letter to The Assistant Inspector General for Audit and
The Chief Financial Officer ........................................................................................... 5

Exhibit I - Comments and Recommendations ............................................................ 7
        1. Untimely Receipt of Prepared-by-Client (PBC) Items .................................... 7
        2. Unsupported and Incorrect Upward Adjustments........................................... 9
        3. Failure to Provide Sufficient Documentation for Certain
             Non-Grant, Non-Benefit Expenses ............................................................. 11
        4. Inadequate Review of Non-grant, Non-benefit New
             Obligations/Modifications ............................................................................ 13
        5. Lack of Monitoring over Grant Costs............................................................ 14
        6. Lack of Controls over Grant Closeouts ........................................................ 17
        7. Inaccurate Calculation of Certain Schedule Award Payments ..................... 19
        8. Lack of Reconciliation of Child Agency Data Reported in the
             DOL Trial Balance ...................................................................................... 20
        9. Reestablishment of the Unemployment Compensation
             Advisory Council ......................................................................................... 22
        10. Insufficient Documentation Related to the Review of Payroll
             Suspense Reports ...................................................................................... 24

Exhibit II - Prior Year Comments with Undetermined Status .................................. 27

Exhibit III - Status of Prior Year Comments .............................................................. 29

Appendix A
    Acronyms and Abbreviations ............................................................................ 43




                                                                                 Management Advisory Comments
                                                                          For the Year Ended September 30, 2010
                                                      1                         Report Number: 22-11-006-13-001
                                                 Prepared by KPMG LLP
             for the U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK




                                      Management Advisory Comments
                               For the Year Ended September 30, 2010
               2                     Report Number: 22-11-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General



Executive Summary
KPMG LLP (KPMG), under contract to the United States Department of Labor (DOL or
the Department), Office of Inspector General (OIG), was engaged to audit DOL’s
consolidated financial statements as of and for the year ended September 30, 2010.
Because of matters discussed in KPMG’s Independent Auditors’ Report, dated
November 15, 2010, the scope of KPMG’s work was not sufficient for them to express,
and they did not express, an opinion on the FY 2010 consolidated financial statements.

In connection with the FY 2010 audit engagement, DOL’s internal control over financial
reporting and DOL’s compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the
FY 2010 consolidated financial statements were also considered. Providing opinions on
the effectiveness of DOL’s internal control over financial reporting and on compliance
with laws, regulations, contracts, and grant agreements was not an objective of the
engagement, and accordingly, such opinions were not provided. However, certain
matters were noted involving (a) internal control and its operation that were considered
to be material weaknesses and significant deficiencies, and (b) instances of
noncompliance that were considered to be material. In addition, certain other matters
were noted that were considered to be management advisory comments.

This report was prepared to provide information to management that could help in the
development of corrective actions for the management advisory comments identified in
the engagement. A separate report will be issued to the Chief Information Officer and
the Chief Financial Officer containing management advisory comments pertaining to the
testing procedures performed over the Department’s general and application controls
over information technology (IT) systems that support the consolidated financial
statements.

Details over the material weaknesses, significant deficiencies, and instances of material
noncompliance, listed below, have been included in the Independent Auditors’ Report
found in DOL’s FY 2010 Agency Financial Report.

Material Weaknesses

1. Lack of Sufficient Controls over Financial Reporting

2. Lack of Sufficient Controls over Budgetary Accounting

3. Improvements Needed in the Preparation and Review of Journal Entries

4. Lack of Adequate Controls over Access to Key Financial and Support Systems



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2010
                                        3                       Report Number: 22-11-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General


Significant Deficiencies

5. Weakness Noted over Payroll Accounting

6. Untimely and Inaccurate Processing of Property, Plant, and Equipment Transactions

Instances of Material Noncompliance

1. Federal Managers’ Financial Integrity Act of 1982

2. Federal Financial Management Improvement Act of 1996

Management Advisory Comments

We identified certain non-IT matters during the engagement that were not considered to
be material weaknesses, significant deficiencies, or instances of material
noncompliance, which we would like to bring to management’s attention. These findings
and recommendations are presented in this report.

Had KPMG been able to perform all of the procedures necessary to express an opinion
on the FY 2010 consolidated financial statements, other matters involving internal
control over financial reporting and instances of noncompliance may have been
identified and reported.




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2010
                                       4                      Report Number: 22-11-006-13-001
                                                                                      Prepared by KPMG LLP
                                                  for the U.S. Department of Labor—Office of Inspector General



                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036-3389




November 15, 2010


Mr. Elliot P. Lewis, Assistant Inspector General for Audit
Mr. James L. Taylor, Chief Financial Officer
U.S. Department of Labor
Washington, D.C. 20210


Mr. Lewis and Mr. Taylor:

We were engaged to audit the consolidated financial statements of the United States
Department of Labor (DOL) for the fiscal year (FY) ended September 30, 2010.
Because of matters discussed in our Independent Auditors’ Report, dated
November 15, 2010, the scope of our work was not sufficient to enable us to express,
and we did not express, an opinion on DOL’s FY 2010 consolidated financial
statements.

In connection with our FY 2010 audit engagement, we also considered DOL’s internal
control over financial reporting and DOL’s compliance with certain provisions of
applicable laws, regulations, contracts, and grant agreements that could have a direct
and material effect on the FY 2010 consolidated financial statements. Providing
opinions on the effectiveness of DOL’s internal control over financial reporting and on
compliance with laws, regulations, contracts, and grant agreements was not an
objective of our engagement, and accordingly, we do not express such opinions. We
have not considered internal control since the date of our report.

During our audit engagement, we noted certain matters involving internal control and
other operational matters that do not relate to information technology and are presented
for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and have been communicated
through the issued Notifications of Findings and Recommendations, are intended to
improve internal control or result in other operating efficiencies and are summarized in
Exhibit I. These comments are in addition to the material weaknesses, significant
deficiencies, and instances of material noncompliance presented in our Independent
Auditors’ Report, dated November 15, 2010, included in the DOL’s FY 2010 Agency
Financial Report. Exhibit II identifies the prior year comments for which we were not
able to perform all audit procedures necessary to determine the FY 2010 status. We
also summarized the status of all prior year comments in Exhibit III. Comments involving

                                                                                               Management Advisory Comments
                                                                                        For the Year Ended September 30, 2010
                                                      5                                       Report Number: 22-11-006-13-001
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General



internal control and other operational matters noted that relate to information technology
will be presented in a separate letter to you and the Chief Information Officer.

As described above, the scope of our work was not sufficient to enable us to express an
opinion on DOL’s FY 2010 consolidated financial statements. Had we been able to
perform all of the procedures necessary to express an opinion, other matters involving
internal control over financial reporting and instances of noncompliance may have been
identified and reported. We aim, however, to use our knowledge of DOL’s organization
gained during our work to make comments and suggestions that we hope will be useful
to you.

We would be pleased to discuss these comments and recommendations with you at
any time.

This communication is intended solely for the information and use of DOL management
and DOL’s Office of Inspector General, and is not intended to be and should not be
used by anyone other than these specified parties.

Very truly yours,




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2010
                                        6                     Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I



Comments and Recommendations
1. Untimely Receipt of Prepared-by-Client (PBC) Items

Before commencement of significant fieldwork for the fiscal year (FY) 2010 engagement
to audit the United States (U.S.) Department of Labor (DOL) consolidated financial
statements, the Office of the Chief Financial Officer (OCFO) was provided with a
detailed listing of client-prepared documentation required to support the audit
engagement. The prepared-by-client (PBC) list detailed the required items and their due
dates, which were discussed in advance with the OCFO.

During the FY 2010 engagement to audit the DOL‘s consolidated financial statements,
the OCFO:

•   Provided numerous PBC items in an untimely manner.

•   Produced several PBC items that were not suitable and required significant
    revisions.

•   Did not effectively communicate anticipated delays in the submission of certain PBC
    items, and in certain cases did not request deadline extensions for PBC items until
    they were overdue.

•   Did not set realistic deadlines that were achievable when revising due dates for
    numerous PBC items.

These matters were reported to the OCFO periodically throughout the audit
engagement during the bi-weekly status meetings.

As of October 26, 2010, 49% of the PBC items requested in support of the financial
statement audit engagement were received late, overdue, or could not be provided.
Furthermore, although the OCFO revised the due dates for numerous items needed at
year end, 66% of those items were either provided after the revised due date or were
not provided before the audit engagement ended.

The PBC items were delayed because the OCFO was focused on addressing data and
system issues related to the implementation of New Core Financial Management
System (NCFMS), and lacked the resources to proactively monitor and adequately fulfill
the PBC list. In addition, certain PBC items were incomplete and of poor quality
because of the difficulties DOL encountered in retrieving complete and accurate
information from NCFMS and the lack of sufficient review of PBC documentation prior to
submission to us.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                       7                       Report Number: 22-11-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

DOL’s inability to timely provide PBC items, effectively communicate delays, and set
revised due dates that were realistic resulted in significant delays in the audit
engagement and impaired our ability to perform audit procedures over certain financial
statement line items.

The U.S. Government Accountability Office’s (GAO) Standards for Internal Control in
the Federal Government (Standards) states that, “Internal control and all transactions
and other significant events need to be clearly documented, and the documentation
should be readily available for examination. The documentation should appear in
management directives, administrative policies, or operating manuals and may be in
paper or electronic form. All documentation and records should be properly managed
and maintained.”

Recommendations

We recommend that the Chief Financial Officer:

1. Develop and implement a quality control process for reviewing PBC items prior to
   submission to the auditors.

2. Improve monitoring of the PBC list by periodically reviewing it for items due in the
   upcoming weeks and following up with the responsible individuals prior to the due
   date to ensure they are tracked and to identify potential delays prior to the due date;
   and ensure the appropriate resources are in place to adequately fulfill the PBC list.

3. Improve accountability for PBC items by coordinating with the appropriate Agency
   Heads to ensure they are properly monitoring those individuals responsible for
   delivering PBC items.

4. Communicate PBC delays, which should be rare, as soon as they are identified, and
   provide a realistic alternative delivery date based on consultation with the auditors
   and individuals or agency responsible for providing the item.

Management’s Response

The difficulties experienced in providing PBC items were primarily due to the ongoing
challenges resulting from the implementation of NCFMS. Revised procedures will be
implemented to ensure that PBC items are reviewed and approved before they are
submitted to the auditors, the PBC list is monitored, and delays and revised due dates
are provided to the auditors based on our best estimates.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2010
                                        8                       Report Number: 22-11-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Auditors’ Response

Management has provided a corrective action plan to address our recommendations.
FY 2011 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed.

2. Unsupported and Incorrect Upward Adjustments

Upward adjustments are recorded by DOL when a modification is made to a prior year
obligation in an expired fund. The transaction must be recorded to a valid, unclosed
Treasury Appropriation Fund Symbol, and supported by adequate documentation, such
as a modification.

During our testing of a sample of 13 upward adjustments through March 31, 2010, we
identified the following exceptions in the second quarter:

•   3 upward adjustments totaling $45.2 million were recorded in the general ledger but
    were not supported by appropriate audit evidence to substantiate an upward
    adjustment transaction.

•   10 instances totaling $48.3 million were new obligations related to grant activities
    that were recorded as upward adjustments (Account 4881) instead of increases to
    undelivered orders, unpaid (Account 4801).

The activity for the third and fourth quarters was not material; therefore, no testing was
performed over those periods.

The 3 exceptions related to the $45.2 million in upward adjustments occurred because
the OCFO recorded certain unsupported adjustments to the general ledger in order to
pass the edit checks for the second quarter Federal Agencies Centralized Trial Balance
System II (FACTS II) submission. In addition, certain upward adjustments were
recognized in error in an attempt to correct a state unemployment insurance
employment services operations (SUIESO) collection transaction that improperly
excluded the budgetary accounts.

The remaining 10 exceptions occurred because NCFMS was not properly configured to
recognize new obligations related to multi-year funds.

The cumulative effect of these discrepancies resulted in upward adjustments being
overstated by $93.5 million as of March 31, 2010. In addition, the entries to record the
new obligations were not in compliance with the U.S. Standard General Ledger
(USSGL) at the transactional level.

GAO’s Standards states, “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2010
                                        9                       Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

available for examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form. All
documentation and records should be properly managed and maintained.”

Office of Management and Budget (OMB) Circular No. A-11, Preparation, Submission,
and Execution of the Budget, states, “Multi-year budget authority is available for
obligation for the specified period of time in excess of one fiscal year. During the
unexpired phase of a multi-year appropriation, the budget authority is available for
incurring “new” obligations. Agencies may use expired authority to make adjustments to
obligations or disbursements only during a period of five years after the last unexpired
year.”

In addition, USSGL (August 2009 version), Section III Account Transactions, transaction
code B306 states, “To record current-year undelivered orders without an advance.”

      Budgetary Entry
      Debit 4610 Allotments – Realized Resources
      Debit 4620 Unobligated Funds Exempt From Apportionment
      Debit 4700 Commitments – Programs Subject to Apportionment
      Debit 4720 Commitments – Programs Exempt From Apportionment
                       Credit 4801 Undelivered Orders – Obligations, Unpaid

Recommendations

We recommend that the Chief Financial Officer:

1. Properly resolve all FACTS II edit check issues and only record adequately
   supported adjusting entries to the general ledger.

2. Update the system configuration in NCFMS to record a credit to Account 4801 for
   activities related to new obligations for multi-year unexpired funds.

Management’s Response

We concur with recommendations and will implement revised procedures to ensure that
FACTS II entries are properly supported. Changes to NCFMS have already been
implemented.

Auditors’ Response

Management concurred with our comment and has provided a corrective action plan to
address our recommendations. FY 2011 audit procedures will determine whether these
recommendations have been adequately addressed and can be considered closed.



                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                        10                     Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

3. Failure to Provide Sufficient Documentation for Certain Non-Grant, Non-Benefit
   Expenses

During our testing of 20 non-grant, non-benefit expense sample items for the period
October 1, 2009, through December 31, 2009, we identified the following exceptions:

•   The Employment and Training Administration (ETA) was not able to provide
    evidence of review by an authorizing official for 2 of the 3 ETA sample items tested
    because ETA did not maintain sufficient supporting documentation authorizing the
    recording of the two transactions.

•   The Office of Job Corps (OJC or Job Corps) was not able to provide evidence of
    review by an authorizing official for 1 of the 11 Job Corps sample items tested
    because Job Corps was not able to locate the supporting documentation related to
    the transaction.

•   The Veteran’s Employment and Training Service (VETS) and Job Corps were not
    able to provide evidence of review by an authorizing official for 1 of the 2 VETS
    sample items and 2 of the 11 Job Corps sample items tested, respectively, in a
    timely manner. We submitted our samples to VETS and Job Corps on
    March 30, 2010, and requested that supporting documentation be provided by
    April 7, 2010. However, VETS and Job Corps did not provide the supporting
    documentation for these three items until September 9, 2010. These delays
    occurred because of the agencies’ inability to identify the appropriate personnel to
    provide the supporting documentation in a timely manner.

We were unable to test non-grant, non-benefit expenses for the period January 1, 2010,
through September 30, 2010. Therefore, we could not determine if similar exceptions
occurred during that time period.

Without adequate controls over the recording of expense transactions, material errors
could occur and not be detected and corrected in a timely manner. In addition, the
untimely retrieval of documentation caused delays in the completion of our FY 2010
audit procedures.

GAO’s Standards states, “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form. All
documentation and records should be properly managed and maintained.”




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                        11                     Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Recommendations

We recommend that the:

1. Assistant Secretary for Employment and Training reinforce policies and procedures
   and provide related training to address the minimum documentation requirements
   needed to sufficiently support recorded transactions.

2. National Director of the Office of Job Corps reinforce policies and procedures to
   ensure supporting documentation for transactions are properly managed,
   maintained, and easily retrieved.

3. Assistant Secretary for the Veteran’s Employment and Training Service and the
   National Director of the Office of Job Corps reinforce procedures to satisfy audit
   requests in a timely manner by (a) identifying the appropriate personnel to handle
   audit requests timely, (b) obtaining and providing supporting documentation to the
   auditors timely, and (c) requiring designated supervisors to regularly monitor the
   progress of audit request responses.

Management’s Response

Recommendation 1: ETA concurs with the recommendation to reinforce existing
policies and procedures to ensure documentation exists to support recorded
transactions. In the future, ETA will work with OCFO to ensure that adjustments posted
on behalf of ETA are reviewed and approved by management prior to completion.

Recommendation 2: The Office of Job Corps concurs with the recommendation to
reinforce existing policies and procedures to ensure documentation exists to support
recorded transactions. In the future, Job Corps will work with OCFO to ensure that
adjustments posted on behalf of ETA are reviewed and approved by management prior
to completion.

Recommendation 3: The Office of Job Corps and VETS concur with this finding.
Although the audit sample in questions was provided to KPMG on September 9, 2010,
we acknowledge that the response was not provided in a timely manner. Procedures
are in place to ensure that requests for audit sample data are routed to the appropriate
responsible Job Corps staff.

Auditors’ Response

Management concurred with our comment and has provided a corrective action plan to
address our recommendations. FY 2011 audit procedures will determine whether these
recommendations have been adequately addressed and can be considered closed.



                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                       12                      Report Number: 22-11-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

4. Inadequate Review of Non-grant, Non-benefit New Obligations/Modifications

The majority of DOL procurements are managed through the E-Procurement System
(EPS). To initiate an acquisition transaction for non-capitalized expenses, a requisition
form or purchase order is completed electronically through EPS, which discloses a
description of the purchase (e.g., number of units and price per unit), date, agency
location code, object class code, accounting string, agency, amount, need, authorizing
official, and requesting official. Upon completion by the purchaser, the requisition
form/purchase order is reviewed and approved by an authorizing official (e.g.,
contracting officer or program manager).

During our testing of 12 non-grant, non-benefit new obligations/modifications for the
period October 1, 2009, through December 31, 2009, we identified 1 instance where the
obligating document did not agree to the amount recorded in the Department of Labor
Accounting and Related System (DOLAR$). Because of the exception noted above, we
concluded this control was not operating effectively. Testing over the remaining sample
was not performed since the exception identified resulted in the failure of the control.

VETS informed us that this instance occurred because grant officers were allowed to
make obligations for an amount less than the obligating document and a documented
communication should exist to support it. However, in the above instance, VETS did not
provide us any supporting documentation evidencing the communications to decrease
the obligation.

Without adequate controls over the non-grant, non-benefit new obligation/modification
process, obligations may be intentionally or unintentionally misreported. As a result,
undelivered orders may be invalid or inaccurate.

U.S. Code Title 31 Section 1501, Documentary Evidence Requirement for Government
Obligations, states, “An amount shall be recorded as an obligation of the United States
Government only when supported by documentary evidence of a binding agreement
between an agency and another person (including an agency) that is (a) in writing, in a
way and form, and for a purpose authorized by law, and (b) executed before the end of
the period of availability.” Section 1554, Audit, control and reporting, states, "The head
of each agency shall establish internal controls to assure that an adequate review of
obligated balances is performed to support the certification required by section 1108(c)
of this title."

In addition, GAO’s Standards states, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be
readily available for examination. The documentation should appear in management
directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and
maintained.”


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2010
                                        13                      Report Number: 22-11-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

GAO’s Standards also states, “Transactions should be promptly recorded to maintain
their relevance and value to management in controlling operations and making
decisions. This applies to the entire process or life cycle of a transaction or event from
the initiation and authorization through its final classification in summary records. In
addition, control activities help to ensure that all transactions are completely and
accurately recorded.”

Recommendation

We recommend that the Assistant Secretary for the Veteran’s Employment and Training
Service enhance policies and procedures to ensure that changes made to obligating
documents are supported by documentation that is retained and readily available upon
request.

Management’s Response

Although we have reviewed the transaction noted by the auditor and concluded that the
transaction was properly obligated for the correct amount, VETS agrees to work with
OASAM-OPS to better ensure that proper supporting documentation over changes to
obligating documents is retained and readily available upon request.

Auditors’ Response

Management has provided a corrective action plan to address our recommendation. FY
2011 audit procedures will determine whether this recommendation has been
adequately addressed and can be considered closed.

5. Lack of Monitoring over Grant Costs

ETA grantees are required to submit quarterly Financial Status Reports (ETA 9130 or
cost report), which document the costs incurred by the grantees, and performance
reports (collectively referred herein as grant reports). Grant reports are due within 45
days after the end of the quarter. The E-Grants application allows ETA’s grantees to
directly submit the required grant reports via the internet. Once the grantee has
submitted and certified the grant reports, the assigned Federal Project Officer (FPO) is
required to perform a comprehensive review and analysis of the grant reports no later
than 75 days after quarter end through a desk review. The FPO’s review and
determinations are documented in the Grants e-Management System (GEMS). Once
the FPO approves the cost report, the FPO accepts it in E-Grants, and it is
automatically uploaded into DOL’s general ledger.

For ETA grants, the FPOs are ultimately responsible for monitoring their grantees to
ensure that the appropriate cost and performance reports are submitted in a timely
manner. To aid in this monitoring, the Division of Financial and Systems Services
(DFSS) generates quarterly from NCFMS the Delinquent Reporting Analysis, which

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2010
                                         14                     Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

identifies those grantees who are delinquent in submitting their cost reports as well as
cost reports that have not yet been accepted by the assigned FPO. For those grants
identified, the DFSS staff notifies the assigned FPO who is responsible for monitoring
the grantee to ascertain the reason for the delinquency.

During our FY 2010 engagement, we planned to select a sample of 45 grant reports
submitted by grantees throughout the year to test ETA’s grant monitoring controls. For
the first quarter, we selected 17 grant reports submitted from October 1, 2009, through
December 31, 2009. For 1 of the 17 grant reports tested, we noted that a desk review
was not completed by the assigned FPO. Because of the exception noted above, we
concluded this control was not operating effectively. Testing over the remaining sample
was not performed since the exception identified resulted in the failure of the control.

The FPO responsible for the aforementioned desk review stated that he completed the
desk review in a timely manner and submitted the review in GEMS, but that the review
was not reflected in GEMS due to a system error. The FPO was not able to provide
supporting documentation to substantiate this error.

We also noted that ETA did not monitor its grantee delinquent cost reports from January
2010 through August 2010. This process had historically been performed through
review of the Delinquent Reporting Analysis. However, the OCFO deactivated the
functionality in E-Grants that allowed FPOs to accept grantees’ cost reports because of
significant interface issues encountered subsequent to the implementation of NCFMS.
Since FPOs were unable to accept cost reports, the related data could not be
transferred from E-Grants to the NCFMS general ledger. As a result, the Delinquent
Reporting Analysis produced from NCFMS erroneously reported ETA 9130s as
delinquent and therefore was unreliable. Although the OCFO re-activated the cost
report acceptance function in July 2010, ETA informed us that the FPOs continued to
experience issues accepting cost reports through September 30, 2010. However, ETA
did begin producing and reviewing the Delinquent Reporting Analysis again in
September 2010.

Although E-Grants is capable of generating a report that identifies all cost reports not
submitted for a specified quarter, ETA did not implement alternative procedures using
this report because staff resources were needed to address other significant
implementation issues related to NCFMS.

The lack of adequate detective controls in the grant expense process may result in
grantees intentionally or unintentionally misreporting grant expenses without the
misstatement being detected by DOL. Additionally, without adequate grantee monitoring
controls, grantees may misuse grant funds without detection by DOL, or fail to report
grant expenditure details. As a result, ETA’s grant-related expenses, advances,
payables, and undelivered orders could be misstated.



                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                       15                      Report Number: 22-11-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

DOL’s General Guidance on GEMS Usage for FY05 memorandum, which is DOL’s
policy regarding desk reviews, states, “Desk reviews should be completed 30 days after
receipt of the quarterly reports from grantees, but no later than 75 calendar days after
the end of the calendar quarter.”

ETA’s Delinquent Filers Monitoring Procedures state, “Each FPO is asked to contact the
grantees and ensure that certified reports are submitted to ETA and are
reviewed/accepted by the FPO through the cost reporting system.”

In addition, GAO’s Standards states, “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of
security, and the creation and maintenance of related records, which provide evidence
of execution of these activities as well as appropriate documentation. Control activities
may be applied in a computerized information system environment or through manual
processes.”

Furthermore, U.S. Code Title 31, Chapter 75 (commonly referred to as the "Single Audit
Act'') states, “Each Federal agency shall, in accordance with guidance issued by the
Director under section 7505, with regard to Federal awards provided by the agency –
(1) monitor non-Federal entity use of Federal awards…”

Recommendations

We recommend that the Assistant Secretary for Employment and Training perform the
following:

1. Evaluate GEMS to determine the cause of the system error and develop appropriate
   corrective action to ensure that desk reviews submitted by FPOs are properly
   accepted by the system.

2. Establish procedures in GEMS such that a confirmation is provided to the FPO upon
   review submission.

3. Require supervisors to periodically review a sample of active grantees to confirm
   that the reports are being completed timely. This review should be documented.

4. Work with the OCFO to ensure all interface issues have been resolved between E-
   Grants and NCFMS.

5. Develop and implement procedures to monitor grantees’ delinquent cost reports
   using data from E-Grants until all the issues impacting the Delinquent Reporting
   Analysis are resolved.



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2010
                                        16                      Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Management’s Response

Our regional management team will continue to check the completed Desk Reviews
quarterly, as specified in their performance agreements, to ensure that these reports are
completed timely, and documented in GEMs. In addition, management staff working
with the FPOs continue to generate exception reports from GEMS to ensure that
financial reports and performance reports are reviewed and certified by the FPOs
timely.

ETA developed and implemented alternative procedures to monitor grantees’ delinquent
cost reports. These procedures were used to produce the “delinquent cost reports” for
the quarters ending June 30th and September 30th.

ETA worked with OCFO to correct the problems with the interface of E-Grants to
NCFMS. As of the end of the Fiscal Year the error rate was less than 1% (.073). ETA
will continue to work with OCFO to correct the remaining problems.

Auditors’ Response

Management has provided a corrective action plan to address our recommendations.
FY 2011 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed.

6. Lack of Controls over Grant Closeouts

We identified several exceptions during our testing of ETA’s grant closeout process as
of March 31, 2010. Specifically, we noted that the closeout process was not completed
for 4 of the 25 grants tested and more than 12 months had passed since the grant
expired. We did not perform grant closeout testing for the last six months of FY 2010
because of the issues noted below.

Because of significant interface issues subsequent to the implementation of NCFMS in
January 2010, the OCFO deactivated the report acceptance feature within E-Grants,
preventing FPOs from accepting ETA 9130s from February 2010 through June 2010.
Since FPOs were unable to accept the final ETA 9130s, the ETA Closeout Unit was
unable to complete grant closeouts within E-Grants and NCFMS.

Although the OCFO re-activated the feature allowing FPOs to accept ETA 9130s within
E-Grants, ETA continued to experience problems with the feature through
September 30, 2010. As a result, the ETA Closeout Unit was unsuccessful in closing all
expired grants.

Without adequate controls to timely close out expired grants and deobligate any
remaining funds, undelivered orders may be overstated.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                        17                     Report Number: 22-11-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records, which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”

GAO’s Standards also states, “Transactions should be promptly recorded to maintain
their relevance and value to management in controlling operations and making
decisions. This applies to the entire process or life cycle of a transaction or event from
the initiation and authorization through its final classification in summary records. In
addition, control activities help to ensure that all transactions are completely and
accurately recorded.”

Furthermore, ETA’s Closeout Manual provides the internally-developed closeout
procedures and documentation on the timeframe for the assignment of grants
scheduled to be closed, the receipt of closeout documents from the grantee, and the
reconciliation of the closeout documents by the closeout specialist. The Closeout
Manual indicates that in accordance with the Department of Labor Manual Series 2,
Chapter 800, Section 877 “Grants and agreements are to be closed within 12 months of
the expiration or termination of the grant or agreement.”

Recommendations

We recommend that the Assistant Secretary for Employment and Training perform the
following:

1. Evaluate E-Grants to determine the cause of the continuing system errors related to
   the acceptance of ETA 9130s, and develop and implement the appropriate
   corrective action.

2. Develop and implement alternative procedures to closeout ETA grants until the
   system issues are corrected.

Management’s Response

As noted in the finding, during most of FY 2010, problems with NCFMS prevented the
timely close-out of grants. ETA and OCFO management worked to correct some of
those problems during the year. Currently most grant costs, payments, and obligations
are accurate, and a procedure has been established to migrate in the grant closeout
data that were not included in the original data migration. Due to these changes, most
grant close-outs can be accomplished in a timely manner. The Closeout Unit will
continue to work on reducing the backlog of grants as well as those due for closeout
during FY 2011.


                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2010
                                         18                      Report Number: 22-11-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Auditors’ Response

Management has provided a corrective action plan to address our recommendations.
FY 2011 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed.

7. Inaccurate Calculation of Certain Schedule Award Payments

During our FY 2010 testing over the Integrated Federal Employees Compensation
System’s (iFECS) automatic calculation of Schedule Award payments, we noted that
iFECS incorrectly calculated the amount of compensation paid to certain claimants.
Specifically, claimants whose compensation period included a fraction of a day were
underpaid by up to 1 day of compensation.

For example, we identified a claimant who was entitled to 109.2 days of compensation
at a daily rate of $70.35. The total compensation payment should have been $7,682;
however, it was only $7,626 because iFECS calculated the payment using 108.4 days
instead of 109.2 days. This resulted in the claimant being underpaid by $56.

In the 50 Schedule Award payments selected for testing for the six month period ended
March 31, 2010, we identified 14 instances where the claimant's compensation period
included a fraction of a day. For the exceptions identified, the total amount calculated by
iFECS and paid to the claimants was $540,756. However, the total amount paid should
have been $541,519, resulting in underpayments of $763. We did not perform testing
over this control for the last six months of FY 2010 because the exceptions identified
resulted in the failure of the control.

The underpayments occurred because iFECS was not properly configured to calculate
Schedule Award payments for claimants whose compensation period included a fraction
of a day. For such payments, the calculation within iFECS utilized the fractional day for
both the first day of compensation and the final day of compensation rather than utilizing
a full day of compensation for the first day and the fractional day of compensation for
the final day. This resulted in iFECS calculating a lower compensation payment amount
than was actually owed to the claimant.

Section 2-0901-14 of the Division of Federal Employees' Compensation (DFEC)
Procedure Manual (the Manual) states the following:

   a. “Beginning Date. Schedule awards begin on the date of maximum medical
      improvement unless circumstances show a later date should be used.

   b. Percentage of Loss. This percentage is applied to the number of weeks specified
      in section 8107 of the Act or in the regulations for total loss or loss of use of the
      body part or organ in question. The resulting number of weeks is multiplied by


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2010
                                         19                     Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

      the weekly wage and the compensation rate (e.g., 205 weeks x 10 percent x
      $400 x 75 percent).

   c. Computing the Award. Given a starting date and a number of days of entitlement,
      the Compensation System will compute the ending date of an award and
      terminate payments accordingly.

   d. Fraction of Day (FOD). Where the award ends in a fraction of a day, line 3 of
      Form CA181, Schedule Award Decision, should include the phrase "fraction of a
      day.

   For example: An award for 15 percent loss of use of a foot is 30.75 weeks of
   compensation. The two-place decimal is retained, and the partial day it represents is
   called ‘fraction of a day,’ or FOD. The dates of payment might be shown as,
   'March 2, 2004 to October 4, 2004, fraction of a day.’”

Recommendation

We recommend that the Director of the Office of Workers’ Compensation Programs
correct the system configuration in iFECS so it accurately calculates the full amount of
Schedule Awards payments owed to the claimants in accordance with
Section 2-0901-14 of the Manual.

Management’s Response

Management concurs with this finding. DFEC implemented a system change on July
22, 2010, within iFECS to accurately calculate Schedule Award payments for a
compensation period which includes a fraction of a day. It should be noted that the
reported deficiency had a minimal impact on payments. The total underpayment
represents only a 0.0038 of all monies paid out for Schedule Awards during the affected
period.

Auditors’ Response

Management concurred with our comment and has provided a corrective action plan to
address our recommendation. FY 2011 audit procedures will determine whether this
recommendation has been adequately addressed and can be considered closed.

8. Lack of Reconciliation of Child Agency Data Reported in the DOL Trial Balance

During our testing over the parent/child process in FY 2010, we noted that the U.S.
Department of Agriculture U.S. Forest Service’s (USFS) December 31, 2009, trial
balance provided to the OCFO was not reconciled to the USFS’ Job Corps Center
Financial Reports (Forms 2110F) provided to OJC as of May 2010.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                       20                      Report Number: 22-11-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

The December 31, 2009, reconciliation was not performed as a result of a lack of
communication between the OCFO and the OJC. In addition, neither OJC nor the
OCFO have formulated any formal policies and procedures to perform the quarterly
reconciliation. Failure to reconcile child agency data reported in the DOL financial
statements in a timely manner may result in inaccurate financial reporting. Testing over
the subsequent quarters was not performed because the exception identified resulted in
the failure of the control.

Per OMB Circular No. A-123, Management’s Responsibility for Internal Control, “The
agency head must establish controls that reasonably ensure that obligations and costs
are in compliance with applicable law, funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation, and revenues
and expenditures applicable to agency operations are properly recorded and accounted
for to permit the preparation of accounts and reliable financial and statistical reports....”

OMB Circular No. A-123 further states, “Management is responsible for developing and
maintaining effective internal control. Effective internal control provides assurance that
significant weaknesses in the design or operation of internal control, that could
adversely affect the agency’s ability to meet its objectives, would be prevented or
detected in a timely manner.”

Furthermore, GAO’s Standards states, “Internal control should generally be designed to
assure that ongoing monitoring occurs in the course of normal operations. It is
performed continually and is ingrained in the agency’s operations. It includes regular
management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties.”

Recommendations

We recommend that the Chief Financial Officer and the National Director of the Office of
Job Corps determine the appropriate personnel to perform the reconciliation between
the child agency’s Forms 2110F and the child agency’s trial balance. Once determined,
we recommend that the appropriate office make the following improvements to its
internal control structure:

1. Formalize policies and procedures in writing related to the reconciliation of child
   agency data reported in the child agencies’ trial balance to the Forms 2110F, and
   ensure they are properly communicated to all appropriate individuals.

2. Require in the procedures that the reconciliation be completed and reviewed prior to
   the end of the subsequent quarter (e.g., the June 30 reconciliation should be
   completed before September 30).




                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2010
                                         21                      Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

3. Require in the procedures that a supervisor review the reconciliation for timeliness
   and accuracy. This review should be documented by the reviewer signing and dating
   the reconciliation.

Management’s Response

OCFO and OJC were in communication regarding the Parent/Child reconciliation
process and other financial matters and there was no misunderstanding over OJC’s
responsibility to perform the cost reports and the 2110 cost report reconciliations.
OCFO assisted OJC with the reconciliation for the previous three years while OJC was
in OSEC, by providing contractor support. In April 2010, OJC transitioned back into
ETA and ETA’s accounting office again assumed responsibility for the reconciliation.
While, the transition delayed the December 31, 2009, the reconciliation it has since
been completed.

Regarding the recommendations, ETA has reconciliation procedures in existence from
when ETA previously performed this function on behalf of OJC. OJC will confirm that
the procedures are formally documented and ensure that they are properly
communicated to all appropriate individuals. In addition, OJC will ensure that the
procedures:

   1. Require that the reconciliation be completed and reviewed prior to the end of the
       subsequent quarter;

   2. Require that a supervisor review the reconciliation for timeliness and accuracy and
       that this review is documented by the reviewer signing and dating the
       reconciliation.

With the transition back into ETA, OJC will continue to work cooperatively with the
Agency’s accounting office to make sure that the reconciliation is both timely and
accurately completed and OJC will provide ETA with any documentation that may be
needed to update the current procedures to further ensure accuracy.

Auditors’ Response

Management has provided a corrective action plan to address our recommendations.
FY 2011 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed.

9. Re-establishment of the Unemployment Compensation Advisory Council

According to section 908 of the Social Security Act, starting in 1992 and “every 4th year
thereafter, the Secretary of Labor shall establish an advisory council to be known as the
Advisory Council on Unemployment Compensation.” The purpose of this council is to
“evaluate the unemployment compensation program, including the purpose, goals,

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                        22                     Report Number: 22-11-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

countercyclical effectiveness, coverage, benefit adequacy, trust fund solvency, funding
of State administrative costs, administrative efficiency, and any other aspects of the
program and to make recommendations for improvement.”

The last meeting of the Unemployment Compensation Advisory Council (UCAC) was in
1997.

Since the Social Security Act requires this council to meet every four years, ETA is not
in compliance with this requirement of the Social Security Act. ETA does not believe
that the UCAC is the most effective way to evaluate the unemployment compensation
program. As a result, ETA has proposed an amendment to the Social Security Act in the
Unemployment Compensation Program Integrity Act of 2005, 2006, 2008, 2009, and
2010 that would permit the Secretary of the Department of Labor to establish an
advisory council periodically instead of every four years, as follows:

   “Section 10 amends section 908 of the Social Security Act pertaining to the Advisory
   Council on Unemployment Compensation. Current law requires that the Secretary of
   Labor convene a new Council every four years. The amendments provide that the
   Secretary may periodically convene a Council and provides the Secretary the
   authority to define the scope of any such Council.”

However, Congress has not yet approved this amendment.

Recommendation

We recommend that the Assistant Secretary for Employment and Training continue to
pursue having the Social Security Act amended.

Management’s Response

ETA continues to pursue an amendment to the Social Security Act that would require
the Secretary of the Department of Labor to establish an advisory council periodically
instead of every four years. Such an amendment has been included in the
Unemployment Compensation Program Integrity Act of 2005, 2006, 2008, and 2010, but
has not been acted upon by Congress. Consistent with the recommendation, ETA will
continue to work to advance an amendment to the Social Security Act. A similar
proposal will be included as part of the FY 2011 legislative package and has been
submitted to OMB for approval.

Auditors’ Response

Management has provided a corrective action plan to address our recommendation. FY
2011 audit procedures will determine whether this recommendation has been
adequately addressed and can be considered closed.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2010
                                       23                      Report Number: 22-11-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

10. Insufficient Documentation Related to the Review of Payroll Suspense Reports

During FY 2010, we tested the resolution process for personnel actions that were
requested by DOL but were not processed by the U.S. Department of Agriculture’s
National Finance Center (NFC), DOL’s third-party payroll service provider. Such items
were summarized in a suspense report each pay period for each Human Resource (HR)
office. We selected a sample of 40 payroll suspense reports as of September 30, 2010,
and identified the following:

•   9 instances where the HR offices did not have sufficient and appropriate
    documentation to support that errors were adequately researched and corrective
    actions were initiated for the suspense report requested.

•   5 instances where the HR offices did not provide the requested suspense reports.

These exceptions occurred because the Office of the Assistance Secretary for
Administration and Management’s (OASAM) Standard Operating Procedures
Guidelines for Human Resource Payroll Suspense Process does not specifically state
the minimum documentation requirements for the review of suspense reports and the
clearing of items listed on the suspense reports. Also, it does not contain document
retention requirements. These omissions increase the risk that suspense reports are not
being reviewed daily and appropriately corrected in a timely manner, which may result
in misstatements.

GAO’s Standards states, “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form. All
documentation and records should be properly managed and maintained.”

In addition, OASAM’s Standard Operating Procedures Guidelines for Human Resource
Payroll Suspense Process states, “Each day the HR specialists will work actions in the
PeoplePower application.” It also states, “If the actions fail, the status will be Suspense,
the actions should be reviewed and researched to determine the appropriate
correction/change necessary to allow the action to pass the edits.”

Recommendation

We recommend that the Assistant Secretary of Administration and Management update
the Standard Operating Procedures Guidelines for the Human Resource Payroll
Suspense Process to include minimum documentation requirements to support the
review of suspense reports and the clearing of items listed on the suspense reports.
The update should also include requirements related to the length and method of
retention of such documentation.


                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2010
                                         24                      Report Number: 22-11-006-13-001
                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                        Exhibit I

Management’s Response

The OASAM Human Resources Center (HRC) concurs with the finding that the
referenced provisions of the Standard Operating Procedures Guidelines for the HR
Suspense Process do not provide specific requirements with regard to documenting the
actions taken by human resources offices (HROs) to resolve items that appear on the
NFC Suspense Transactions Report. HRC also agrees that the specification of such
requirements may improve the ability of HROs to produce evidence showing that
suspense items were resolved in a timely and appropriate manner.

HRC notes that this NFR does not cite any substantive issues with regard to the
resolution of any suspense items for which documentation was provided.

HRC will consult with the HROs and with the Office of the Chief Financial Officer
(OCFO) to review the NFC Suspense Transaction Report and to determine what, if any,
specific requirements should be instituted with regard to documenting the resolution of
suspense items for audit purposes. HRC notes that HROs have expressed several
concerns regarding this suspense report, including, among other things: (1) that
generating and retaining such documentation is extremely labor-intensive and (2) that
such documentation requirements could be overly burdensome in terms of the volume
of hard copy documentation that must be retained on a daily basis. Accordingly, our
review of the NFC Suspense Transaction Report and determination as to what, if any,
documentation requirements should be instituted will be undertaken in consideration of
these concerns and the costs/benefits associated with any documentation requirements
that might be imposed.

HRC will review the NFC Suspense Transaction Report in consultation with the OCFO
and other stakeholders, including the HROs, and will develop an appropriate action plan
by the end of Q3 FY 2011.

Auditors’ Response

Management concurred with our comment and has provided a corrective action plan to
address our recommendation. FY 2011 audit procedures will determine whether this
recommendation has been adequately addressed and can be considered closed.




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2010
                                       25                     Report Number: 22-11-006-13-001
                                                Prepared by KPMG LLP
            for the U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK




                                       Management Advisory Comments
                                For the Year Ended September 30, 2010
               26                     Report Number: 22-11-006-13-001
                                                                           Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit II



Prior Year Comments with Undetermined
Status
We presented certain comments related to our audit of the United States Department of
Labor’s (DOL) fiscal year (FY) 2009 consolidated financial statements in the
Management Advisory Comments Identified in an Audit of the Consolidated Financial
Statements for the Year Ended September 30, 2009, dated March 18, 2010, (MAC).
Because of matters discussed in our Independent Auditors’ Report, dated
November 15, 2010, the scope of our work was not sufficient to enable us to express,
and we did not express, an opinion on DOL’s FY 2010 consolidated financial
statements. As a result, we were not able to perform all of the procedures necessary to
determine the FY 2010 status of certain findings reported in the FY 2009 MAC.

Presented below are those FY 2009 findings for which we were not able to determine
the FY 2010 status, with their related recommendations.

Accounting for Certain Job Corps Contracts (FY 2009 Comment No. 8)

We recommended that the Interim National Director of the Office of Job Corps:

Review the detail of Job Corps advances at September 30, 2009, identify all invalid
advances, and post adjustments necessary to properly state the advance balance no
later than March 31, 2010.

Develop and implement policies and procedures to monitor Job Corps centers receiving
advances and perform follow-up, as necessary, to ensure centers are reporting
expenditures timely.

Compliance with the Prompt Payment Act (FY 2009 Comment No. 9)

We recommended that the Acting Deputy Chief Financial Officer direct the Division of
Client Accounting Services (DCAS) to adopt the following improvements to its internal
control structure:

1. Reinforce procedures with the regional offices that invoice received dates entered
   into Department of Labor Accounting and Related Systems (DOLAR$)1 should
   reflect the date of receipt of a proper invoice by DOL.

2. Develop and implement a periodic review process to verify that proper invoice
   received dates are entered into DOLAR$.


1
    DOLAR$ was replaced in FY 2010 with the New Core Financial Management System.
                                                                     Management Advisory Comments
                                                              For the Year Ended September 30, 2010
                                              27                    Report Number: 22-11-006-13-001
                                             Prepared by KPMG LLP
        for the U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK




                                     Management Advisory Comments
                              For the Year Ended September 30, 2010
               28                   Report Number: 22-11-006-13-001
                                                                                                         Prepared by KPMG LLP
                                                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                                                         Exhibit III




Status of Prior Year Comments
The status of comments reported in the Management Advisory Comments Identified in an Audit of the Consolidated
Financial Statements for the Year Ended September 30, 2009, dated March 18, 2010, (MAC), addressed to the
Assistant Inspector General for Audit and the Acting Deputy Chief Financial Officer, United States (U.S.) Department of
Labor (DOL), is summarized in the table below. For each comment, we provided the current year status.

                                                                                                   FY 2010 Status
  2009       Fiscal Year     Title of Comment                                                       of Comment
Comment       Comment      Reported in FY 2009                                                    Reported in the
 Number      Originated             MAC           Recommendation(s) Reported in the FY 2009 MAC     FY 2009 MAC
   01           2006       Improvements           We recommended that the Assistant Secretary for Closed
                           Needed in Financial    Administration and Management:
                           Reporting
                                                  1. Develop and implement procedures to better link
                                                     the Statement of Net Cost to DOL’s strategic goals.
                                                  2. Follow up with the Office of Management and
                                                     Budget (OMB) to reach a conclusion on whether or
                                                     not Pension Benefit Guaranty Corporation
                                                     performance information should be reported in
                                                     DOL’s Performance and Accountability Report.
    02          2006       Budgetary to           We recommended that the Acting Deputy Chief Open (See
                           Proprietary Analyses   Financial Officer:                                   Independent
                                                                                                       Auditors’ Report,
                                                  1. Complete the implementation of comprehensive internal control
                                                     quarterly budgetary to proprietary relationship
                                                                                                       deficiency no. 2)
                                                     analyses (including documented resolution of
                                                     identified differences). These analyses should be
                                                     documented, reviewed, and approved by an
                                                     appropriate supervisor in a timely manner. In
                                                     addition, documentation should be maintained to
                                                     support these activities.

                                                                                                 Management Advisory Comments
                                                                                          For the Year Ended September 30, 2009
                                                            29                                  Report Number: 22-11-006-13-001
                                                                                                     Prepared by KPMG LLP
                                                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                                                    Exhibit III

                                                                                                          FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                                  of Comment
Comment    Comment      Reported in FY 2009                                                               Reported in the
 Number   Originated            MAC           Recommendation(s) Reported in the FY 2009 MAC                FY 2009 MAC
                                              2. Formally document the relationship analyses
                                                  procedures and the expected timeframe for
                                                  completion and review for each quarter.
  03         2008       Budget Reporting      We recommended that the Assistant Secretary for Closed
                        Processes             Administration and Management provide Departmental
                                              Budget Center (DBC) staff and supervisors with
                                              specific guidance on proper preparation and review of
                                              the SF-132s and SF-133s prior to submitting the forms
                                              to OMB and the U.S. Department of the Treasury.
  04         2008       Recording of Budget   We recommended that the Acting Deputy Chief Open (See
                        Authority             Financial Officer:                                    Independent
                                                                                                    Auditors’ Report,
                                              1. Combine the transaction codes used to record internal control
                                                  budget authority so that such proprietary and
                                                                                                    deficiency no. 2)
                                                  budgetary entries are posted simultaneously.
                                              2. Establish a transaction code to record budgetary
                                                 resources approved by OMB for which Treasury
                                                 Warrants had not yet been received in compliance
                                                 with the U.S. Government Standard General
                                                 Ledger.
                                              In addition, we recommended that the Assistant
                                              Secretary for Administration and Management:
                                              1. Develop and implement procedures to consult with
                                                the Office of the Chief Financial Officer (OCFO) for
                                                guidance on appropriate transaction codes to be
                                                used to record economic events when the
                                                information is not available for DBC staff.
  05         2006       Grant Closeouts and   We recommended that the Assistant Secretary for Open (See
                        Deobligation of       Employment and Training improve the procedures for Exhibit I comment

                                                                                             Management Advisory Comments
                                                                                      For the Year Ended September 30, 2010
                                                      30                                    Report Number: 22-11-006-13-001
                                                                                                       Prepared by KPMG LLP
                                                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                                                      Exhibit III

                                                                                                 FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                         of Comment
Comment    Comment      Reported in FY 2009                                                      Reported in the
 Number   Originated            MAC            Recommendation(s) Reported in the FY 2009 MAC      FY 2009 MAC
                        Grant-related         deobligating Undelivered Orders (UDOs) related to no. 6)
                        Undelivered Orders    expired grants and programs. These procedures
                                              should include:
                                              1. Closeout     supervisors review the Closeout
                                                 Inventory Tracking System with the closeout
                                                 specialists periodically to (a) determine the status
                                                 of grant closeouts in conjunction with and/or in
                                                 addition to regular monthly meetings, (b) follow-up
                                                 on any grants that have not been closed within the
                                                 established time frames to ensure timely
                                                 resolution, and (c) initiate deobligations of invalid
                                                 UDO balances for grants experiencing closeout
                                                 delays.
                                              2. Identification of grants with programs having
                                                 varying expiration dates, and designation of
                                                 appropriate personnel to initiate deobligations for
                                                 these programs at the time of the program’s
                                                 expiration.
                                              3. Tracking and prompt resolution of rejected
                                                 expiration notifications.
                                              4. Review of all grants on a more frequent basis (e.g.,
                                                 quarterly) to (a) ensure that all grants nearing or
                                                 past expiration are properly identified and assigned
                                                 to a Closeout Specialist and (b) make appropriate
                                                 deobligations when it is reasonably expected that
                                                 the grantee will not be reporting any additional
                                                 expenses even if the grant has not been fully
                                                 closed out.

                                                                                               Management Advisory Comments
                                                                                        For the Year Ended September 30, 2010
                                                       31                                     Report Number: 22-11-006-13-001
                                                                                                      Prepared by KPMG LLP
                                                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                                                     Exhibit III

                                                                                                           FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                                   of Comment
Comment    Comment      Reported in FY 2009                                                                Reported in the
 Number   Originated            MAC           Recommendation(s) Reported in the FY 2009 MAC                 FY 2009 MAC
                                              In addition, we recommended that the Assistant
                                              Secretary for the Veteran’s Employment and Training
                                              Service, in coordination with the Assistant Secretary
                                              for Administration and Management, develop and
                                              implement specific procedures to complete the grant
                                              closeout process within 12 months of each grant’s
                                              expiration in accordance with the Department of Labor
                                              Manual Series. These procedures should include:
                                              1. Continuing “clean up” of all expired grants to bring
                                                 all grant closeouts up to date.
                                              2. Deobligating funds when it is reasonably expected
                                                  that the grantee will not be reporting any additional
                                                  expenses.
  06         2007       Grant Monitoring      We recommended that the Assistant Secretary for Open (See
                                              Employment and Training ensure the following Exhibit I comment
                                              improvements are made to the Employment and no. 5)
                                              Training Administration’s internal control structure:
                                              1. Require supervisors to periodically review a sample
                                                 of Federal Project Officer (FPO) desk reviews to
                                                 confirm that the reviews are being completed
                                                 timely. This review should be documented.
                                              2. Develop    an exception report in Grants
                                                 eManagement System to note when desk reviews
                                                 have not been performed by the FPO. The
                                                 exception report should also highlight/track desk
                                                 reviews that are close to or beyond the completion
                                                 deadline of 75 calendar days after the end of the
                                                 calendar quarter. Supervisors should review these

                                                                                              Management Advisory Comments
                                                                                       For the Year Ended September 30, 2010
                                                       32                                    Report Number: 22-11-006-13-001
                                                                                                       Prepared by KPMG LLP
                                                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                                                      Exhibit III

                                                                                                            FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                                    of Comment
Comment    Comment      Reported in FY 2009                                                                 Reported in the
 Number   Originated            MAC           Recommendation(s) Reported in the FY 2009 MAC                  FY 2009 MAC
                                                reports periodically and follow-up with the FPOs as
                                                appropriate.
                                              3. Reinforce procedures, especially in the national
                                                 office, which require a detailed review of the
                                                 Delinquent Reporting Analysis by the FPOs each
                                                 quarter. In addition, develop and implement
                                                 procedures for supervisors to perform a quarterly
                                                 review of a sample of delinquent cost reports from
                                                 the Delinquent Reporting Analysis to confirm that
                                                 the FPOs are resolving delinquent reporting
                                                 situations timely; this review should be
                                                 documented.
                                              4. Develop and implement procedures for FPOs, or
                                                 other individuals contacting delinquent grantees, to
                                                 maintain accurate and complete records of the
                                                 communication and results.
  07         2009       Maintenance of        We recommended that the Assistant Secretary for              ETA - Open (See
                        Certain Expense       Employment and Training develop and implement                Exhibit I comment
                        Supporting            procedures to identify the appropriate personnel to          no. 3);
                        Documents             provide requested supporting documentation timely.           HRC - Closed
                                              In addition, we recommended that the Director of the
                                              Human Resources Center (HRC) reinforce audit
                                              response procedures to satisfy audit requests in a
                                              timely manner by:
                                              1. Identifying the appropriate personnel to handle
                                                 audit request timely.
                                              2. Obtaining and providing supporting documentation
                                                 to the auditors timely.

                                                                                               Management Advisory Comments
                                                                                        For the Year Ended September 30, 2010
                                                       33                                     Report Number: 22-11-006-13-001
                                                                                                      Prepared by KPMG LLP
                                                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                                                     Exhibit III

                                                                                                           FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                                   of Comment
Comment    Comment      Reported in FY 2009                                                                Reported in the
 Number   Originated            MAC           Recommendation(s) Reported in the FY 2009 MAC                 FY 2009 MAC
                                              3. Providing answers to follow-up questions regarding
                                                 audit samples timely.
                                              4. Requiring designated supervisors to regularly
                                                  monitor the progress of audit request responses.
  08         2009       Accounting for        We recommended that the Interim National Director of Undetermined
                        Certain Job Corps     the Office of Job Corps:                               (See Exhibit II
                        Contracts                                                                    comment no. 8)
                                              1. Review the detail of Job Corps advances at
                                                  September 30, 2009, identify all invalid advances,
                                                  and post adjustments necessary to properly state
                                                  the advance balance no later than March 31, 2010.
                                              2. Develop and implement policies and procedures to
                                                 monitor Job Corps centers receiving advances and
                                                 perform follow-up, as necessary, to ensure centers
                                                 are reporting expenditures timely.
  09         2009       Compliance with the   We recommended that the Acting Deputy Chief Undetermined
                        Prompt Payment Act    Financial Officer direct the Division of Client (See Exhibit II
                                              Accounting Services (DCAS) to adopt the following comment no. 9)
                                              improvements to its internal control structure:
                                              1. Reinforce procedures with the regional offices that
                                                 invoice received dates entered into Department of
                                                 Labor Accounting and Related Systems (DOLAR$)
                                                 should reflect the date of receipt of a proper invoice
                                                 by DOL.
                                              2. Develop and implement a periodic review process
                                                to verify that proper invoice received dates are
                                                entered into DOLAR$.
  10         2009       Non-grant/Non-        We recommended that:                               Open (See
                        Unemployment Trust                                                       Independent
                                                                                              Management Advisory Comments
                                                                                       For the Year Ended September 30, 2010
                                                       34                                    Report Number: 22-11-006-13-001
                                                                                                     Prepared by KPMG LLP
                                                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                                                    Exhibit III

                                                                                                       FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                               of Comment
Comment    Comment      Reported in FY 2009                                                            Reported in the
 Number   Originated            MAC           Recommendation(s) Reported in the FY 2009 MAC             FY 2009 MAC
                        Fund Undelivered                                                              Auditors’ Report
                        Orders
                                              1. The Acting Deputy Chief Financial Officer direct internal control
                                                 DCAS to reinforce formal policies and procedures
                                                                                                      deficiency no. 2)
                                                 to distribute the Unliquidated Obligation Report the
                                                 last week of each month.
                                              2. The Acting Deputy Chief Financial Officer, the
                                                 Acting Assistant Secretary for Occupational Safety
                                                 and Health, the Assistant Secretary for
                                                 Employment and Training, the Director of the Office
                                                 of Workers’ Compensation Programs, and the
                                                 Commissioner of the Bureau of Labor Statistics
                                                 reinforce formal policies for each agency to
                                                 adequately and timely review the monthly
                                                 Unliquidated Obligation Report to identify expired
                                                 UDOs for deobligation as necessary.
                                              3. The   Director of the Office of Workers’
                                                 Compensation Programs reinforce policies and
                                                 procedures to maintain proper supporting
                                                 documentation for all accounting transactions and
                                                 balances.




                                                                                             Management Advisory Comments
                                                                                      For the Year Ended September 30, 2010
                                                       35                                   Report Number: 22-11-006-13-001
                                                                                                     Prepared by KPMG LLP
                                                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                                                    Exhibit III

                                                                                                  FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                           of Comment
Comment    Comment      Reported in FY 2009                                                       Reported in the
 Number   Originated            MAC           Recommendation(s) Reported in the FY 2009 MAC        FY 2009 MAC
   11        2008       Statement of          We recommended that:                               Open (See
                        Differences                                                              Independent
                        Reconciliation
                                              1. The Assistant Secretary for Administration and Auditors’ Report
                                                 Management ensure that staff implement existing
                        Process                                                                  internal control
                                                 procedures to ensure Statement of Differences
                                                                                                 deficiency no. 1)
                                                 (FMS-6652) reconciliations are being performed
                                                 timely.
                                              2. The Assistant Secretary for Administration and
                                                 Management and the Acting Deputy Chief
                                                 Financial Officer ensure that staff implement
                                                 existing procedures that require the preparation
                                                 and retention of supporting documentation
                                                 evidencing timely completion and supervisory
                                                 review of the FMS-6652 reconciliations, in order to
                                                 substantiate that reconciliations were performed
                                                 properly and that they were reviewed by personnel
                                                 other than the preparer.
  12         2009       Other Fund Balance    We recommended that the Acting Deputy Chief Open (See
                        with Treasury         Financial Officer:                                     Independent
                        Reconciliations                                                              Auditors’ Report
                                              1. Develop and implement procedures to retain internal control
                                                 supporting documentation evidencing supervisory
                                                                                                     deficiency no. 1)
                                                 review of the quarterly fund balance with Treasury
                                                 reconciliation, whether in electronic or hard copy
                                                 format, to substantiate the reviews performed by
                                                 personnel other than the preparer.
                                              2. Implement procedures to ensure that the monthly
                                                 Government Wide Account Statement Expenditure
                                                 Activity reconciliation is performed timely (i.e.,
                                                 before the end of the subsequent month) and
                                                 supporting documentation is retained evidencing
                                                                                             Management Advisory Comments
                                                                                      For the Year Ended September 30, 2010
                                                       36                                   Report Number: 22-11-006-13-001
                                                                                                       Prepared by KPMG LLP
                                                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                                                      Exhibit III

                                                                                                            FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                                    of Comment
Comment    Comment      Reported in FY 2009                                                                 Reported in the
 Number   Originated            MAC            Recommendation(s) Reported in the FY 2009 MAC                 FY 2009 MAC
                                                  the timely performance of the reconciliation,
                                                  whether in electronic or hard copy format.
  13         2009       Untimely Clearing of   We recommended that the Acting Deputy Chief Closed because
                        the Capital Asset      Financial Officer:                                   of the retirement
                        Tracking and                                                                of CATARS
                        Reporting System
                                               1. Develop and implement formal policies and
                                                  procedures       requiring     capitalized  asset
                        Holding File
                                                  management officers (CAMOs) to perform the
                                                  review and clearing of Capital Asset Tracking and
                                                  Reporting System (CATARS) holding file items
                                                  timely (e.g., within 2 weeks after the end of the
                                                  month). Documentation should be maintained to
                                                  support these activities.
                                               2. Monitor agencies’ compliance with the developed
                                                 policies and procedures.
  14         2009       Property, Plant, and   We recommended that:                                        Closed
                        Equipment Additions
                                               1. The Commissioner for the Bureau of Labor
                                                  Statistics and the Acting Assistant Secretary for the
                                                  Office of Safety and Health Administration develop
                                                  and implement procedures to properly record
                                                  capitalized costs in accordance with Statement of
                                                  Federal Financial Accounting Standards (SFFAS)
                                                  No. 6 and No.10.
                                               2. The Acting Deputy Chief Financial Officer develop
                                                  and implement procedures to monitor all DOL
                                                  agencies’ compliance with SFFAS No.6 and No.10.
                                               3. The Assistant Secretary for Administration and
                                                  Management ensure that the staff in the Office of
                                                  the Assistant Secretary for Administration and

                                                                                               Management Advisory Comments
                                                                                        For the Year Ended September 30, 2010
                                                       37                                     Report Number: 22-11-006-13-001
                                                                                                      Prepared by KPMG LLP
                                                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                                                     Exhibit III

                                                                                                           FY 2010 Status
  2009    Fiscal Year    Title of Comment                                                                   of Comment
Comment    Comment      Reported in FY 2009                                                                Reported in the
 Number   Originated            MAC             Recommendation(s) Reported in the FY 2009 MAC               FY 2009 MAC
                                                  Management’s maintain a complete set of
                                                  supporting documentation for each transaction and
                                                  that the supporting documentation is readily
                                                  available for examination.
  15         2009       Construction In        We recommended that the Interim National Director for Open (See
                        Progress Transfers     the Office of Job Corps implement policies and Independent
                                               procedures requiring:                                   Auditors’ Report
                                                                                                       internal control
                                               1. All parties reviewing the substantial completion deficiency no. 6)
                                                  document to complete their review within a
                                                  specified timeframe (e.g., within 5 business days of
                                                  receiving the document).
                                               2. The CAMO entering the asset into CATARS and
                                                  DOLAR$ to use the date of substantial completion
                                                  as the depreciation start date.
                                               3. The periodic review of Construction-In-Progress
                                                   balances to identify any items that should be
                                                   transferred to a depreciable asset account. This
                                                   review should be documented.
  16         2008       Review of Software     We recommended that the Acting Deputy Chief Closed
                        Development            Financial Officer enhance the Certification process by
                        Balances               having agencies certify that software costs incurred in
                                               prior years continue to be valid capitalized costs for
                                               projects still in development or that those costs should
                                               be removed from software in development.
  17         2009       Property, Plant, and   We recommended that the Interim National Director of Closed
                        Equipment Disposals    the Office of Job Corps implement policies and
                                               procedures to perform a periodic review of asset
                                               disposals recorded during the fiscal year to ensure
                                               they are properly authorized.

                                                                                              Management Advisory Comments
                                                                                       For the Year Ended September 30, 2010
                                                        38                                   Report Number: 22-11-006-13-001
                                                                                                      Prepared by KPMG LLP
                                                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                                                     Exhibit III

                                                                                                       FY 2010 Status
  2009    Fiscal Year     Title of Comment                                                               of Comment
Comment    Comment      Reported in FY 2009                                                            Reported in the
 Number   Originated             MAC           Recommendation(s) Reported in the FY 2009 MAC            FY 2009 MAC
   18        2009       Improvements           We recommended that the Acting Deputy Chief Closed because
                        Needed in Property,    Financial Officer:                                     of the retirement
                        Plant, and Equipment                                                          of CATARS
                        Reconciliation
                                               1. Reinforce policies and procedures requiring all
                                                  agencies to provide completed CATARS to
                        Controls
                                                  DOLAR$ reconciliations to the OCFO within 10
                                                  work days following the end of the quarter,
                                                  including explanation of the identified reconciling
                                                  items.
                                               2. Amend the existing documented policies and
                                                   procedures to include procedures that require the
                                                   OCFO staff to complete the quarterly DOLAR$ to
                                                   CATARS reconciliation by internal agency codes
                                                   timely.
  19         2009       Periodic               We recommended that the Director of the Office of Closed
                        Accountability         Workers’     Compensation       Programs      implement
                        Reviews                procedures to ensure that the review of all
                                               Accountability Review reports is completed in
                                               accordance with the Division of Federal Employees
                                               Compensation Program’s Procedure Manual (Manual).
  20         2008       Controls over the      We recommended that the Director of the Office of Closed
                        Integrated Federal     Workers’ Compensation Programs continue to stress
                        Employees              the importance of Claims Examiner compliance with
                        Compensation           the Manual related to timely claim file review, follow-up
                        System                 on obtaining the information supporting claimants’
                                               continuing eligibility (medical evidence and CA-1032,
                                               Request for Information on Earnings, Dual Benefits,
                                               Dependents and Third Party Settlements, or CA-12,
                                               Claim for Continuation of Compensation), and updates
                                               to the claimants’ pay rate based on the information
                                               provided in the CA-1032.
                                                                                              Management Advisory Comments
                                                                                       For the Year Ended September 30, 2010
                                                       39                                    Report Number: 22-11-006-13-001
                                                                                                       Prepared by KPMG LLP
                                                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                                                      Exhibit III

                                                                                                         FY 2010 Status
  2009    Fiscal Year     Title of Comment                                                                of Comment
Comment    Comment      Reported in FY 2009                                                              Reported in the
 Number   Originated             MAC            Recommendation(s) Reported in the FY 2009 MAC             FY 2009 MAC
   21        2009       Improvements           We recommended that the Director of the Office of Closed
                        Needed in Controls     Workers’ Compensation Programs revise existing
                        over Fiscal Year-End   policies and procedures to require management to
                        Estimates Related to   develop and implement a methodology for estimating
                        the Federal            the Federal Employees’ Compensation Act year-end
                        Employees’             accrual and allowance for doubtful accounts receivable
                        Compensation Act       that is supported by a documented analysis of
                                               historical trends. This analysis should be updated
                                               annually to take into consideration actual results and
                                               changes in the industry.
  22         2007       Reconciliation of      We recommended that the Acting Deputy Chief Open (See
                        Child Agency Data      Financial Officer and the Interim National Director of Exhibit I comment
                        Reported in the DOL    Job Corps determine the appropriate personnel to no. 8)
                        Trial Balance          perform the reconciliation between the cost reports
                                               (Forms 2110F) and the child agency amounts reported
                                               in the DOL trial balance. Once determined, we
                                               recommended that the appropriate office make the
                                               following improvements to its internal control structure:
                                               1. Formalize policies and procedures in writing related
                                                  to the reconciliation of child agency data reported
                                                  in the DOL trial balance to the Forms 2110F and
                                                  ensure they are properly communicated to all
                                                  appropriate individuals.
                                               2. Require in the procedures that the reconciliation be
                                                  completed and reviewed prior to the end of the
                                                  subsequent quarter (e.g., the June 30 reconciliation
                                                  should be completed before September 30).
                                               3. Require in the procedures that a supervisor review
                                                  the reconciliation for timeliness and accuracy. This

                                                                                               Management Advisory Comments
                                                                                        For the Year Ended September 30, 2010
                                                        40                                    Report Number: 22-11-006-13-001
                                                                                                                 Prepared by KPMG LLP
                                                                             for the U.S. Department of Labor—Office of Inspector General
                                                                                                                                Exhibit III

                                                                                                                      FY 2010 Status
  2009         Fiscal Year     Title of Comment                                                                        of Comment
Comment         Comment       Reported in FY 2009                                                                     Reported in the
 Number        Originated             MAC               Recommendation(s) Reported in the FY 2009 MAC                  FY 2009 MAC
                                                           review should be documented by the reviewer
                                                           signing and dating the reconciliation.
    23            2009        Accounting for the       We recommended that the Acting Deputy Chief                   Open (See
                              State Unemployment       Financial Officer amend the current Department-wide           Independent
                              Insurance and            policies and procedures in place to require that all          Auditors’ Report
                              Employment               manual journal entries generated by internally-               internal control
                              Services Operations      developed programs are reviewed and approved by a             deficiency no. 1)
                              Activities               supervisor or someone other than the preparer before
                                                       they are posted to the general ledger.
    24            1997        Reestablishment of       We recommended that the Assistant Secretary for               Open (See
                              the Unemployment         Employment and Training continue to pursue having             Exhibit I comment
                              Compensation             the Social Security Act amended.                              no. 9)
                              Advisory Council
    25            2008        Process for              We recommended that the Assistant Secretary of Open (See
                              Completing               Administration and Management, as the policy owner, FISCAM Report2
                              Background Checks        continue to implement procedures to actively manage Objective No. 2)
                              Investigations           the background investigation process for all new hires.
                                                       These procedures should ensure that the electronic-
                                                       Office of Personnel Folder contains evidence that
                                                       background investigations are initiated within 14 days
                                                       of the individual’s hire date as required by the DOL
                                                       Personnel Suitability and Security Handbook.




2
 Findings over General and Application Controls for Selected DOL Information Technology Systems Identified in the Engagement to Audit the
Consolidated Financial Statements for the Year Ended September 30, 2010 (FISCAM Report).
                                                                                                         Management Advisory Comments
                                                                                                 For the Year Ended September 30, 2010
                                                                  41                                    Report Number: 22-11-006-13-001
                                               Prepared by KPMG LLP
           for the U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK




                                      Management Advisory Comments
                               For the Year Ended September 30, 2009
                  42                 Report Number: 22-11-006-13-001
                                                                    Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                 Appendix A


Appendix A
                       Acronyms and Abbreviations
CAMO     Capitalized Asset Management Officer
CATARS   Capitalized Asset Tracking and Reporting System
DBC      Departmental Budget Center
DCAS     Division of Client Accounting Services
DFEC     Division of Federal Employees' Compensation
DFSS     Division of Financial and System Services
DOL      United States Department of Labor
DOLAR$   Department of Labor Accounting and Related Systems
EPS      E-Procurement System
ETA      Employment and Training Administration
FACTS    Federal Agencies Centralized Trial Balance System
FOD      Fraction of Day
FPO      Federal Project Officer
FY       Fiscal Year
GAO      Government Accountability Office
GEMS     Grants e-Management System
HR       Human Resource
HRC      Human Resources Center
iFECS    Integrated Federal Employees Compensation System
IT       Information Technology
MAC      Management Advisory Comment
NCFMS    New Core Financial Management System
NFC      United States Department of Agriculture National Finance Center
OASAM    Office of the Assistant Secretary for Administration and Management
OCFO     Office of the Chief Financial Officer
OERPS    Office of Executive Resources and Personnel Security
OIG      Office of Inspector General
OJC      Office of Job Corps
OMB      Office of Management and Budget
PBC      Prepared by Client
PP&E     Property, Plant and Equipment
SFFAS    Statement of Federal Financial Accounting Standards
SUIESO   State Unemployment Insurance and Employment Services Operations
UCAC     Unemployment Compensation Advisory Council
UDO      Undelivered Orders
U.S.     United States
USFS     United States Department of Agriculture United States Forest Service
USSGL    United States Standard General Ledger
VETS     Veterans’ Employment and Training Service




                                                           Management Advisory Comments
                                                    For the Year Ended September 30, 2010
                                   43                     Report Number: 22-11-006-13-001
